                                   OFFICE OF I NSPECTOR GENERAL




          Testimony of The Honorable Everett L. Mosley, Inspector General
                    U.S. Agency for International Development

     Submitted to the Committee on the Budget, U.S. House of Representatives

                  A Closer Look: Inspectors General Address
          Waste, Fraud, Abuse in Federa l Mandatory Programs
                                           July 9, 2003

Mr. Chairman, other committee members, and committee staff, thank you for the opportunity to
provide my written testimony for the record.

This testimony is provided in response to your June 23, 2003, letter of invitation to me to testify
before the committee or provide written testimony for the record. My testimony addresses the
following:

•	     my current estimate of the magnitude of waste, fraud, and abuse within USAID’s
       mandatory programs.
•      the general nature of these problems and how long they have persisted.
•      illustrative examples of these problems.
•      what actions are being taken to eliminate or reduce these problems.
•      what additional actions, of either an administrative or legislative nature, are required.

USAID has two mandatory spending programs. They are (1) the Foreign Service retirement and
disability fund and (2) the credit subsidy under USAID’s development credit authority.

The Department of State manages the Foreign Service retirement system. As a consequence, the
Department of State’s Office of Inspector General is responsible for audits of the Foreign Service
retirement and disability fund. However, USAID’s contributions to the fund are included in
USAID’s financial statements, which we audit as required under the Government Management
and Reform Act of 1994 (GMRA). No issues have been noted regarding USAID’s contributions
to the fund during our audit of USAID’s financial statements.

The credit subsidy under USAID’s development credit authority is also included in USAID’s
financial statements, which are subject to an annual audit under the requirements of the GMRA.
No issues have been reported regarding the subsidy during our audit of USAID’s financial
statements.

While there are no issues to report regarding USAID’s mandatory programs, as verbally
requested, I would like to provide some information on some of USAID’s management

                                  1300 PENNSYLVANIA AVENUE , N.W.
                                      WASHINGTON, D.C. 20523
challenges and the results of one of our more recent significant audits. A full discussion of
USAID’s management challenges can be found in our most recent semiannual report to the
Congress. Our semiannual reports and our audit reports can be found on our website at
http://www.usaid.gov/oig/.

MANAGEMENT CHALLENGES
USAID still faces a number of major management challenges—which parallel the president’s
management agenda. These major management challenges are:

•      financial management
•      information resource management
•      managing for results
•      procurement management
•      human capital management

Financial Management
Although USAID has made considerable progress toward resolving the challenges with its
financial management system in the past year, USAID still faces challenges in reconciling
financial data, calculating and reporting accounts payable, recording and classifying advances
and related expenses, and recognizing and reporting accounts receivable.

Information Resource Management
OIG audits have identified significant weaknesses in USAID’s management of information
technology. The OIG reported that USAID processes for procuring and managing information
resource technology have not followed the guidelines established by the Clinger-Cohen Act.
Also, OIG audits have confirmed that, although USAID has taken steps to improve computer
security, more work is needed to ensure sensitive data are not exposed to unacceptable risks of
loss or destruction. In response to OIG audits, USAID has made substantial computer security
improvements. The OIG will continue to monitor USAID’s progress in improving computer
security.

Managing for Results
Federal laws, such as the Government Performance and Results Act of 1993, require Federal
agencies to develop performance measurement and reporting systems that establish strategic and
annual plans, set annual targets, track progress, and measure results. A significant element of
USAID’s performance management system is the Annual Reports prepared by each of USAID’s
operating units.

For fiscal year 2002, the OIG reported that the performance information included in the
management discussion and analysis section of USAID’s consolidated financial statements
actually represented accomplishments from fiscal year 2001 instead of fiscal year 2002. The OIG
has reported this system’s deficiency many times in prior audit reports. Further, OIG audits
conducted at selected audit units over the past few years have consistently identified deficiencies
in the performance measurement systems of USAID operating units, deficiencies which call into
question the reliability of performance data included in the units’ Annual Reports.



                                                 2

Procurement Management
USAID’s Office of Procurement has been the focus of various initiatives for defining ways to 

improve the effectiveness of USAID’s acquisition and assistance processes. These activities are 

in direct response to the long-standing challenges that the Office of Procurement has faced in the 

areas of procurement staffing, activity planning, and acquisition and assistance award 

administration. 


Human Capital Management

The ability of USAID to carry out its mission in the 21st century will depend, in part, on how 

well it manages all segments of its diverse and widespread workforce. USAID has made efforts 

to improve its human capital management. However, OMB has expressed concerns about current 

and future critical skill gaps, slow progress in redirecting staff from supervisory positions to the 

hands-on activities, and staffing decisions made without programmatic justifications. 


In the OIG’s audit of human capital data, the OIG noted that the human capital data collected and 

maintained by USAID was neither complete nor totally accurate. The OIG made several 

recommendations to help improve the quality and completeness of the human capital data 

collected by USAID. 


Audit of Cargo Preference Reimbursements under
Section 901d of the Merchant Marine Act of 1936
The OIG’s strategy is to help USAID address its major management challenges explained above.
Some OIG audits directed towards USAID’s major management challenges lead to
recommendations with a significant financial impact. One such audit was the OIG’s audit of
cargo preference reimbursements under section 901d of the Merchant Marine Act of 1936.

During the cargo preference audit, the OIG found that in accordance with established laws,
policies, and procedures governing administration of cargo preference reimbursements from the
Department of Transportation to the Department of Agriculture (USDA), USDA could be
entitled to as much as $289 million in additional reimbursements. Of that amount, up to
$175 million could be made available to the two food aid programs administered by USAID.
Furthermore, the OIG found that at least $7.2 million in USAID cargo preference
reimbursements had been misallocated to a USDA program.

The OIG recommended that USAID seek $175 million in unclaimed reimbursements for excess
ocean freight costs dating back to 1994 and further request correction of a $7.2 million
misallocation of a 1995 cargo preference reimbursement from USDA to USAID. USAID
management agreed with the recommendations and is working with OMB and other Federal
agencies to recover the funds.

Thank you for this opportunity to submit written testimony concerning USAID’s mandatory
spending programs and management challenges. I will be happy to respond to any questions you
may have.




                                                 3

